No.

IN THE

Ouprente Court of tbt

uttett Otateti

K. WENDELL LEWIS, ET AL,
Petitioners,
V.
PENSION BENEFIT GUARANTY CORPORATION,
Respondent.

CERTIFICATE OF COMPLIANCE WITH RULE 33.1
As required by Supreme Court Rule 33.1(h), I certify that the PETITION
FOR A WRIT OF CERTIORARI contains 6,540 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 30, 2021.

Anthony F. Shelley
Miller & Chevalier Chartered
900 Sixteenth St. NW
Black Lives Matter Plaza
Washington, DC 20006
Telephone: 202-626-5800
Facsimile• 202-626-5801
E-mail: ashelley@milchev.com
Counsel for Petitioners

